OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S SMALL
AND MEDIUM ENTERPRISE
DEVELOPMENT ACTIVITY

AUDIT REPORT NO. 5-306-08-006-P
June 23, 2008




MANILA, PHILIPPINES

Office of Inspector General


June 23, 2008

MEMORANDUM

TO:       	         USAID/Afghanistan Mission Director, Michael Yates

FROM: 	             Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:	           Audit of USAID/Afghanistan’s Small and Medium Enterprise Development Activity
                    (Audit Report No. 5-306-08-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in appendix II.

This report contains four recommendations to assist USAID/Afghanistan to improve its oversight
of the Afghanistan Small and Medium Enterprise Development Activity. Based on the
information provided by the mission in response to the draft report, we consider that final actions
have been taken on recommendation nos. 1 and 2 upon issuance of this report. In regard to
recommendation nos. 3 and 4, management decision has been reached and determination of
final action will be made by the Audit Performance and Compliance Division upon completion of
the planned corrective action.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
President Diosdado Macapagal Blvd., 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


Was USAID/Afghanistan’s Small and Medium Enterprise

Development Activity accomplishing planned results, and 

what has been the impact? 


     Contractor’s Project Database Needs to Be Refined .................................................. 6 


     Contractor’s Web-based Management Information

     System Needs to Be Implemented ............................................................................... 9 


     Performance Targets Need to Be Realistic ................................................................ 11 


Evaluation of Management Comments ....................................................................... 14 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 17 


Appendix III – Project Indicators and Progress Data................................................. 21 

SUMMARY OF RESULTS

In October 2006, USAID/Afghanistan awarded a $36.8 million contract to Development
Alternatives, Inc. (contractor) to implement the Afghanistan Small and Medium Enterprise
Development Activity (project). With this project the mission aims to support the rapid
transition of Afghanistan to a more stable and productive state through the promotion of
sustainable economic and social development that is responsive to citizens’ needs. The
mission is focused on working with Afghans and others to achieve three interlinked
strategic objectives, including promoting a thriving licit economy led by the private
sector. Further, the mission will assist the Government of Afghanistan to develop sound
economic governance and work with the private sector to stimulate investment and
business opportunities. Moreover, to improve private sector competitiveness, the mission
will assist Afghan firms to compete in the global market and to support small and medium
enterprises (see page 2).

The Regional Inspector General/Manila conducted this audit to determine if
USAID/Afghanistan’s Small and Medium Enterprise Development Activity was
accomplishing planned results and to assess the impact of the project (see page 3).

This audit could not determine if 11 of the 18 performance indicators used to measure
the progress of the project met planned results during the first year of implementation
(January–December 2007). The audit determined that the contractor’s performance data
for these 11 performance indicators were not reliable and therefore not useful in managing
for results or credible for reporting. For the remaining seven indicators, the audit
determined that the project partially met five indicators’ regional performance targets,
exceeded one indicator’s nationwide target, and partially met one indicator’s nationwide
target (see page 4).

The audit concluded that it could not rely on the contractor’s performance data used to
measure results for 11 of the 18 performance indicators because of the lack of proper
controls in managing the contractor’s project database, which resulted in overstated project
results (see page 4). In addition, the mission needs to improve a number of areas
related to its management of the project. Specifically, the mission should direct the
contractor to put into operation its web-based management information system (see
page 9) and establish realistic project targets (see page 11).

This audit report makes four recommendations to assist USAID/Afghanistan to improve its
oversight of the Afghanistan Small and Medium Enterprise Development Activity (see
pages 8, 10, and 13). The mission agreed with all four recommendations. Based on our
evaluation of the mission’s written comments and supporting documentation, we
consider that final actions were taken on recommendation nos. 1 and 2, and
management decisions were reached on recommendation nos. 3 and 4 (see page 14).

USAID/Afghanistan’s written comments are included in their entirety as appendix II to this
report (see page 17.)




                                                                                          1
BACKGROUND

Decades of war and the rule of the Taliban from 1996 to 2001 have made the Islamic
Republic of Afghanistan a failed state with a weak economy and the near-complete
absence of social services. As a consequence, poverty is widespread and deeply
entrenched in the country—the average yearly income is $300 per person. In some
provinces, approximately 90 percent of the population is poor. Therefore, sustained
economic growth is critical to address poverty in the country.

In response to the challenges facing the country, USAID/Afghanistan developed a
strategy aimed to support the rapid transition of Afghanistan to a more stable and
productive state. The strategy is focused on working with Afghans and others to achieve
three interlinked strategic objectives, including promoting a thriving licit economy led by
the private sector. In doing so, the mission is assisting the Government of Afghanistan to
develop sound economic governance and working with the private sector to stimulate
investment and business opportunities. Further, to improve private sector competitiveness,
the mission is helping Afghan firms to compete in the global market and supporting small
and medium enterprises.

To support this strategy, USAID/Afghanistan, in October 2006, awarded a $36.8 million
contract to Development Alternatives, Inc. (contractor), to implement the Afghanistan Small
and Medium Enterprise Development Activity (project). The 3-year contract, with a 2-year
renewal option, was designed to accomplish the following goals:

•	 Provide business development services; strengthen the capacity of business
   associations; support efforts to generate and disseminate market information; promote
   public-private sector partnerships; and build human capital within the private sector,
   business associations, and other business support organizations.
•	 Eliminate nongovernmental barriers to establishing and running efficient businesses.
•	 Assist in establishing a more vibrant private sector that is better able to recognize and
   respond to market forces and opportunities.
•	 Help provide licit economic opportunities for thousands of Afghans through direct and
   indirect assistance.

The mission’s contract called for the project to be implemented in a minimum of four
provinces, including Badakhshan, Helmand, Herat, and Nangarhar. However, immediately
after implementation, the contractor revised the geographic coverage, expanding the
project to potentially include all 34 provinces of Afghanistan, and changed the provincial
targets to regional targets covering the 5 regions in Afghanistan: central, eastern, western,
northern, and southern (see table 1).




                                                                                           2
 Table 1. Geographic Project Coverage Throughout Afghanistan

  Region                                    Provinces
 Central     Bamiyan, Daykundi, Kabul, Kapisa, Logar, Panjshir, Parwan, Wardak
 Eastern     Khost, Kunar, Laghman, Nangarhar, Nurestan, Paktia, Paktika
 Western     Badghis, Farah, Ghor, Herat
 Northern    Badakhshan, Baghlan, Balkh, Faryab, Jowzjan, Kunduz, Samangan, Sar-e
             Pol, Takhar
 Southern    Ghazni, Helmand, Kandahar, Nimruz, Oruzgan, Zabul

USAID/Afghanistan’s office of economic growth is responsible for managing the project. As
of December 31, 2007, mission records showed that the obligated and disbursed amounts
for the program were $20.4 million and $13.2 million, respectively.


AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of the fiscal year
2008 audit plan to answer the following question:

•	 Was USAID/Afghanistan’s Small and Medium Enterprise Development Activity
   accomplishing planned results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       3
AUDIT FINDINGS

This audit could not determine if 11 of the 18 performance indicators used to measure
the progress of the Afghanistan Small and Medium Enterprise Development Activity
(project) met the planned results during the first year of implementation (January–
December 2007). The audit determined that Development Alternatives, Inc.’s (contractor)
performance data for these 11 performance indicators were not reliable and therefore not
useful in managing for results or credible for reporting.

For the remaining seven indicators:
•	 The project partially met five indicators’ regional performance targets. The contractor
   had established specific regional targets for these indicators where project activities
   were to be implemented. Targets were partially met because the results were not
   achieved as planned across each region.
•	 The project exceeded one indicator’s nationwide target. In the first year, the project
   completed 12 market assessments, with help from local partners, thus exceeding its
   target of 8 assessments by 50 percent.
•	 The project partially met one indicator’s nationwide target. In the first year, the
   project achieved an 18 percent increase in the number of clients assisted by
   business development services providers. This result fell short of the target to
   achieve a 25 percent increase.
A complete list of the 18 indicators describing the basis of the data for measuring and
reporting results is provided in appendix III on page 21.

Even though the audit could not determine if planned results were met for 11 of the 18
indicators, the Regional Inspector General/Manila tested and observed a number of the
project activities implemented in the provinces of Herat and Kabul. Some successful
activities in these two provinces are summarized below.

Two activities contributed to the project goal of supporting existing business
associations:

•	 Herat Gardeners Association – A project grant supported this business association
   by providing funds to construct selling booths for horticultural products, which will
   ensure market access points for the gardeners and a location to market their
   products. Moreover, the grant financed setting up an operational office and providing
   training to the association’s members. The business association will provide
   collective marketing services to small-scale farmers.

•	 Herat Carpet Dealers Association – A project grant assisted this business
   association in developing and strengthening the carpet industry in the western region
   of Afghanistan by enabling the association to establish an office, enhancing its
   members’ management and work capacity, and publishing a monthly magazine.
   Furthermore, the project sponsored the participation of carpet dealers in trade shows
   in order to reestablish local market links with the international market. One such
   trade show was held in Afghanistan in August 2007: more than 110 Afghan carpet
   producers exhibited their fine carpets, and buyers from more than 50 countries were


                                                                                        4
   invited. According to a USAID small and medium enterprise development briefer,
   this trade show cost about $110,000 to organize and generated more than $4 million
   in sales and contracts for Afghan carpet producers.

Two activities contributed to the project goal of supporting small and medium
enterprises:

•	 Turquoise Mountain Foundation – A project grant supported this enterprise to
   promote market research; product development; quality control and production
   improvement; and marketing and sales. The foundation’s goal is to expand
   commercial opportunities for the Afghan crafts industry by training craftspeople in
   business skills and product development; increasing the quality of production; and
   linking high-quality products to existing client demand, predominantly abroad.




                Office of Inspector General photograph of an intricately
                designed wood panel hand-carved by woodcarvers at the
                Turquoise Mountain Foundation in Kabul, Afghanistan.
                (February 2008)


•	 Tarsian & Blinkley/Maharat – A project grant assisted this enterprise in providing
   training programs and purchasing machines. This apparel manufacturing facility’s
   mission is to promote the “Made in Afghanistan” label through quality products. It
   also aims to establish an apparel manufacturing training center in Kabul that will
   elevate the standards of domestic manufacturing to international levels.




                                                                                    5
               Office of Inspector General photograph of an industrial sewing
               machine purchased with project funds for Tarsian &
               Blinkley/Maharat in Kabul, Afghanistan. (February 2008).

Despite these achievements related to 2 project indicators and observed in 2 provinces,
the audit could not determine if the contractor achieved the planned results nationwide
for the first year for 11 of the 18 performance indicators, because the audit could not rely
on the project’s performance data. Also, the audit identified other areas that the mission
needs to improve related to its management of the project. Specifically, the mission
needs to require the contractor to refine the data in its project database, put into
operation the planned web-based management information system, and establish
realistic performance targets. These issues are further addressed below.

Contractor’s Project Database
Needs to Be Refined
 Summary: USAID guidance states that performance data should meet five data quality
 standards for the data to be useful in managing for results—one of which is reliability.
 The audit determined that the contractor’s performance data were not reliable, because
 the contractor’s processing of data was flawed: (1) different individuals were responsible
 for entering data into the project database and the process did not allow them to see the
 other entries, which contributed to multiple individuals entering the same data; (2) there
 were no built-in controls identifying data entry errors; (3) there was a lack of periodic
 review of the database files; and (4) there were no prescribed procedures defining
 acceptable information for each data field. As a result, the contractor’s performance data
 were not useful in managing for results or credible for reporting.

USAID’s Automated Directives System 203.3.5.1 states that performance data in
performance management plans should meet five data quality standards—one of which
is reliability—for the data to be useful in managing for results and credible for reporting.



                                                                                          6
For data to be reliable, the data should reflect a stable and consistent data collection
process and analysis methods over time.

However, the audit determined that the contractor’s performance data were not reliable, in
part because the data were initially collected in a project database that was to be
subsequently replaced by a web-based management information system. This project
database was to remain in place until the contractor could fully implement the web-based
management information system for the project. The web-based management information
system would allow the project staff, USAID, and the contractor to track activities to
targets and provide up-to-the-minute access to status reports on progress toward
achieving targets and fulfilling contractual obligations.

The project database consisted of an Excel spreadsheet that served as the repository for
project data. The contractor collected pertinent information on small and medium
enterprises and business associations that registered for services offered through the
project. In addition, the contractor collected information from surveys administered to both
small and medium enterprises and business associations capturing various results of the
services offered through the project. The contractor used this database to track project
activities, extract information, and monitor and report results against performance
targets. Table 2 illustrates the 11 indicators included in the project database.

Table 2. Indicators in the Project Database

                                                                         Year 1     Reported
                 Indicator Number and Description
                                                                         Target      Result
 1.2: Number of small and medium enterprises (SMEs) that
 have added value and/or diversified into higher-value products
 and/or services in response to market demand *                           150         164
 1.3: Increased sales of participating SMEs in target sectors
 (over baseline)                                                        +10%          N/A
 2.3: Number of businesses supported *                                    900       2,417
 2.4: Number of new SMEs created *                                        150         237
 2.5: Jobs created                                                      2,000       3,004
 2.6: Bank loans/equity accessed                                            10         40
 2.7: Investment in new technology                                        800         222
 3.1: Number of business associations established in target
      provinces *                                                           40         33
 3.2: Number of existing business associations supported in
      target provinces *                                                    65         76
 3.3: Increase in membership of project-supported associations          +10%         +5%
 3.4: Number of new members in new/existing associations                1,000       5,416
* These indicators are disaggregated by region in appendix III, but for the purpose of this
table, the planned targets and reported results are presented cumulatively.

The audit determined that the data in the project database were not reliable. Tests
conducted during the audit determined that the database contained duplicate records. For
example, the contractor’s database file initially reported that as of December 31, 2007, a
total of 1,014 small and medium enterprises had registered for services. Initial tests of data
accuracy performed by the auditors identified the presence of duplicate records. Acting on
this information, the contractor performed further tests of accuracy on the file, and the result



                                                                                               7
decreased the number of small and medium enterprises from 1,014 to 933 registered small
and medium enterprises (an 8 percent overstatement). In addition, the auditors reviewed
the refined file and identified still more duplicate records.

The processing of data was flawed for a number of reasons. First, different individuals
were responsible for entering the data into the project database. Each data entry clerk
entered the data onto individual spreadsheets, which were later combined into a single file.
This process did not allow the different data entry clerks to view the other entries which
contributed to multiple individuals entering the same data. Second, the Excel spreadsheet,
used to compile the project data did not have the necessary entry controls to flag data entry
errors as information was keyed into the spreadsheets. Third, the contractor did not
conduct periodic quality control reviews of the database. Fourth, there were no prescribed
procedures defining acceptable information for each data field, leaving it up to the
discretion of each data entry clerk as to how data should be entered. In addition, the
contractor’s chief of party explained that to report on performance indicators, it had to
conduct surveys to establish verifiable progress. The speed and volume of data collection
during the time the surveys were conducted was another cause of data quality errors.

The mission’s cognizant technical officer for the project was not aware of these problems.
He believed that the system was operating as intended because experts from the
contractor’s home office had designed and set up the system and short-term technical staff
trained personnel in populating and maintaining the system. After so much effort, he
expected that the project activity had an excellent system in place.

As a result, the numbers of registered small and medium enterprises were overstated by
at least 81 records, an overstatement that affects all 11 of the performance indicators
extrapolated from the project database. Moreover, flaws in processing data coupled with
the lack of data quality controls meant that performance data were not useful in managing
for results or credible for reporting on 11 of the 18 performance indicators established to
measure project performance. To improve data quality, this audit makes the following
recommendation:

   Recommendation No. 1: We recommend that USAID/Afghanistan require the
   cognizant technical officer for the Afghanistan Small and Medium Enterprise
   Development Activity to work with Development Alternatives, Inc. in refining the
   project database to eliminate duplicate records and to ensure that the data in the
   project database are reliable.




                                                                                           8
Contractor’s Web-based Management
Information System Needs to Be Implemented
 Summary: The contractor’s first-year annual work plan stated that the project would
 be implemented using a web-based management information system. This system
 was integral to the contractor’s ability to track project activities to targets and provide
 up-to-the-minute access to status reports on progress toward achieving targets and
 fulfilling contractual obligations. However, 16 months into the project, the contractor
 has yet to implement the web-based management information system. According to
 the contractor, the system has taken longer than planned to implement because this is
 the first time that they have developed a web-based management information system
 that included a relational database. In the interim, the contractor used a temporary
 project database for tracking and reporting project activity. However, the data
 compiled and used for performance management with this temporary process was not
 reliable for managing results or credible for reporting. Furthermore, the intended
 benefits outlined in the contractor’s first-year work plan for using a web-based
 management information system have not been realized.

The contractor’s first-year work plan described how it intended to manage the project,
achieve results, and communicate those results to USAID and project stakeholders. In
doing so, the contractor described its monitoring and evaluation plan, detailing the
indicators to be used to measure progress. The contractor further described how the
monitoring and evaluation plan would be implemented using a web-based management
information system relational database. By linking the work plan with the milestones, this
management tool would allow the project activity staff, USAID, subcontractors, and the
contractor’s U.S.-based office to track activities to targets and provide up-to-the-minute
access to status reports on progress toward achieving targets and fulfilling contractual
obligations.

The contractor reported that its web-based management information system would be
customized for the project activity to include performance measurement fields in the
database for each program activity. The database would capture gender-disaggregated
data on participants, training, and seminars, as well as serving as a repository for
information on project-supported business associations and business development
service providers.

Despite the time that elapsed from the submission of the first-year work plan, the
contractor has yet to implement its proposed web-based management information
system. As of February 2008, approximately 16 months into the 36 month contract, the
contractor was still using the project database (an Excel spreadsheet) to track and
measure project activity and results. As previously discussed starting on page 6 of this
report, the audit determined that the data contained in the project database were not
reliable and therefore not useful in managing for results or credible for reporting.

The contractor’s plan for integrating the activity data from the inception of the contract
was to export the records from the project database into its web-based management
information system. The contractor had started this process at the time of the audit and
had completed exporting some of the data. However, because the data in its project




                                                                                           9
database were not reliable, the exported data as well were not reliable. The audit
included some tests of the exported data and identified numerous duplicate entries.

According to the contractor, the system has taken longer than planned to implement
because this is the first time they have developed a web-based management information
system that included a relational database. Even though USAID/Afghanistan awarded
the contract in October 2006, the contractor did not conduct its initial customization of
the system until May 2007. Then, it took until fall 2007 for the contractor to develop a
monitoring and evaluation module and begin internal discussions on how the system
was to be customized to monitor and evaluate project performance data and how these
data would be integrated into a web-based repository.

In the interim, the contractor used a temporary project database to track and report
project activity. However, the data compiled and used for performance management
with this temporary process were not reliable for managing results or credible for
reporting.     Because the web-based management information system was not
implemented from the beginning of the contract, the contractor has not had the
necessary tools to effectively manage project performance and report results.

In essence, the contractor’s first-year work plan, dated December 26, 2006, did not
accurately depict the status of its web-based management information system; the work
plan gave the impression that the system was fully operational. Also, the mission’s
cognizant technical officer believed that the system was operating since it was part of
the contractor’s proposal and work plan. The mission never suspected that the system
was incomplete or not operating properly.

Because the contractor’s web-based management information system was to serve as
an integral component of its monitoring and evaluation system, and serve as the basis
for tracking project activity and reporting results, the audit makes the following
recommendation:

   Recommendation No. 2:         We recommend that USAID/Afghanistan require
   Development Alternatives, Inc., to develop a plan of action that will implement the
   web-based management information system by May 31, 2008. This plan would
   include procedures on eliminating duplicate records and in ensuring that the data in
   this system are reliable.




                                                                                          10
Performance Targets
Need to Be Realistic

 Summary: USAID policy on performance indicators and targets states that missions
 should set optimistic yet realistic targets and, further, that missions should approve
 contractor changes to the contractor’s performance management plan. The performance
 targets set out in the contractor’s first-year work plan, as well as in the contract itself,
 were not realistic. Furthermore, the mission did not approve contractor changes to the
 first-year work plan and its performance management plan with regard to expanding its
 geographic coverage from four provinces to potentially include all provinces nationwide.
 The mission had not established realistic performance targets because of various
 unknowns and uncertainties of project success. The mission did not approve contractor
 changes to the performance management plan because the contractor believed that the
 changes were in line with verbal directions received from mission officials to expand the
 project on a nationwide basis. Without realistic performance targets and an approved
 performance management plan, information critical for influencing program decision
 making and resource allocation was not available.


USAID’s Automated Directives System 203.3.4 addresses the policy for selecting
performance indicators and targets for performance management plans. The mission is
responsible for defining its intended results and in doing so should consider how it will
assess progress toward those results. Planning to monitor results involves determining
what change is desired, and to evaluate that change, the mission should set optimistic
performance targets that can be realistically achieved within the stated timeframe and with
the available resources. Further, the mission should approve any changes made to the
contractor’s performance management plan.

The mission expected the contractor to target significant resources for private sector
development in specific provinces with economic development potential and ongoing
complementary programs. Accordingly, the contract called for the project to work in a
minimum of four provinces, specifically identifying Badakhshan, Nangarhar, Helmand, and
Herat. Furthermore, the contract set out project targets for each project indicator in each of
these four provinces. For a number of indicators, the contract also included project targets
for the province of Kabul.

The performance targets set out in the contract as well in the contractor’s first-year work
plan were not realistic. For example, one of these project targets was to form public-private
alliances in five provinces. Another target identified the number of participants to be placed
in mentorship programs in five specific provinces. However, after year one, although the
project overall had some success, results fell dramatically short in some provinces, while in
others the results far exceeded the targets, as illustrated in table 3. Although some
variance is expected between targets and actual results, some of the variances shown in
table 3 are so large as to indicate that the established targets were either not realistic or
were not even used to direct project implementation. For example, for indicator 5.2
“Number of participants in professional learning mentorship program,” targets of 10 were
established for 4 provinces, and all 4 reported no participants. These targets thus appear
to be unrealistic and not used to direct project implementation.




                                                                                           11
 Table 3. Examples of Performance Indicators With Unrealistic Targets


      Indicator Number and Target                 Coverage            Year 1    Reported
               Description                   Province (Region)        Target     Result
 4.1: Number of public-private/global      Kabul (Central)                 2            5
 development alliances formed per          Nangarhar (Eastern)             2            0
 province per year                         Herat (Western)                 2            1
                                           Badakhshan (Northern)           1            1
                                           Helmand (Southern)              1            1
 5.2: Number of participants in            Kabul (Central)                10            0
 professional learning mentorship          Nangarhar (Eastern)            10          27
 program                                   Herat (Western)                10            0
                                           Badakhshan (Northern)          10            0
                                           Helmand (Southern)             10            0

Furthermore, the mission did not approve contractor changes as to where project resources
were to be spent. This happened because the contractor believed that the changes were in
line with verbal directions received from mission officials in January 2007 to expand the
project nationwide. In October 2007, the contractor revised its performance management
plan to expand the geographic coverage of the project from the four provinces identified in
the contract to potentially include all provinces nationwide. As a result, the contractor
committed project resources nationwide and established regional targets as opposed to
provincial targets.

An example of these changes can be illustrated by looking at the performance indicator for
the “Number of business development service providers operating in target provinces.”
The first-year targets for this indicator identified project targets for four provinces:
Badakhshan, Nangarhar, Helmand, and Herat. However, after the contractor expanded the
geographic coverage to all provinces in the nation and established regional targets, the
targets were not used to measure performance and were even less realistic. For example,
20 business development service providers were operating in the central region even
though no target was established for this region (see table 4). On the other hand, in
provinces where the contractor identified ambitious project targets, the project experienced
dismal results. For example, the target for the eastern region was 35 business
development service providers, but the project did not achieve any.

 Table 4. Example of Regional Results – Planned vs. Actual

                                                    Coverage            Year 1 Reported
     Indicator Number and Description          Province (Region)        Target  Result
 2.1: Number of business development         Kabul (Central)                 0       20
 service providers operating in target       Badakhshan (Northern)           5         0
 provinces                                   Helmand (Southern)             10         0
                                             Herat (Western)                35         2
                                             Nangarhar (Eastern)            35         0

According to the cognizant technical officer, realistic targets were not established at the
onset of the project because the mission and the contractor were not certain what success


                                                                                         12
could be achieved in these geographical areas. Therefore, the mission and the contractor
set out in the first year to determine what kind of opportunities were available and whether
they were doable, feasible, and manageable. For example, in setting the targets for the
expected number of public-private alliances in five different provinces, the mission did not
consider the commitment in time, knowledge, and personal engagement required. Also, in
establishing the target for the number of participants to be placed in professional learning
mentorship programs in five provinces, the mission did not consider the realities in
Afghanistan in which there are few large companies and even fewer good managers willing
to participate in such a program.

As of December 31, 2007, the mission obligated $20.4 million and disbursed $13.2 million
for this project, a significant allocation of resources. Without realistic and approved
performance targets, it is impossible to have the performance information that is critical for
influencing program decision making and resource allocations. This performance
information is key for communicating results achieved, or not attained, and for advancing
organizational learning.

For example, in the case of the number of business development service providers
operating in target provinces, based on the first-year achievement, significant resources
were spent in the central region, where no initial target was established. Although the
contractor experienced a positive result in year one, the fact that the contract did not call for
project activity in this area raises the question of whether project resources were being
used effectively. Without realistic targets established at the onset of the project, the
mission is not identifying where the project most needs to effect change.

As a result, the mission is not managing the performance of this project to achieve the most
advantageous development outcomes.            Therefore, the audit makes the following
recommendations:


    Recommendation No. 3: We recommend that USAID/Afghanistan develop and
    implement a plan of action that will require the cognizant technical officer for the
    Afghanistan Small and Medium Enterprise Development Activity to provide
    technical direction to Development Alternatives, Inc. in updating the performance
    management plan; redefining the performance indicators and targets; and
    redirecting their resources to areas where progress can make more of an impact.

    Recommendation No. 4: We recommend that USAID/Afghanistan’s cognizant
    technical officer for the Afghanistan Small and Medium Enterprise Development
    Activity formally approve the updated performance management plan resulting
    from recommendation no. 3.




                                                                                              13
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Afghanistan agreed with the findings and recommendations contained in the draft
report. The mission plans to implement all of the recommendations in the report.

In response to recommendation no. 1, the mission requested the assistance of an expert
from the Afghanistan Services Under Program and Project Offices for Results Tracking
project to perform an independent database audit and confirm the quality after the
contractor completed refining the database to eliminate duplicate records.           On
May 21, 2008, the expert issued an opinion that the contractor has effectively corrected
the duplication errors and has developed a productive and comprehensive method of
reducing duplications and identifying those that occur. Accordingly, we consider that
final action has been taken on this recommendation.

Regarding recommendation no. 2, the mission and the contractor developed a plan that
included conducting training for the monitoring and evaluation staff to increase their
awareness on the importance of the USAID Automated Directives System standards;
data entry process within the web-based management information system; and
clarification of the indicators and data collected to support activity reporting. In addition,
a user manual was created and visits to the regional offices is being planned to verify
data and to ensure that monitoring and evaluation procedures are being followed.
Therefore, we consider that final action has been taken on this recommendation.

As to recommendation nos. 3 and 4, the mission developed a plan that includes issuing
a modification to the contract to better align the scope of work with the current situation
in Afghanistan and the actual implementation circumstances, specifically related to the
provinces and regions. Also included in the plan is the development of a new
performance management plan to conform to this new reality. Further, the proposed
performance management plan will be discussed with the office of program and project
development to ensure consistent monitoring and evaluation of the activity. Lastly, the
cognizant technical officer for the activity will then formally approve the updated
performance management plan by August 31, 2008. Based on the actions taken by the
mission to address recommendation nos. 3 and 4, we consider that management
decisions have been taken on these recommendations and determination of final actions
will be made by the Audit Performance and Compliance Division upon completion of the
planned corrective actions.




                                                                                           14
                                                                                Appendix I




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective, which was to determine whether
USAID/Afghanistan’s Small and Medium Enterprise Development Activity was
accomplishing planned results, and what impact the project has had.

The audit covered results achieved under the Afghanistan Small and Medium Enterprise
Development Activity (project) from January 1 through December 31, 2007. Mission
records showed that, as of December 31, 2007, the project’s obligated and disbursed
amounts were $20.4 million and $13.2 million, respectively. Audit fieldwork was conducted
from January 30 through February 20, 2008, at the offices of USAID/Afghanistan and
Development Alternatives, Inc. (contractor), in Kabul and Herat, Afghanistan.

In conducting this audit, we reviewed and assessed the significant internal controls
developed and implemented by the mission to manage and monitor the project. The
assessment included internal controls related to whether the mission (1) reviewed progress
and financial reports submitted by the contractor; (2) conducted and documented periodic
meetings with the contractor; (3) performed and documented visits to the project sites; and
(4) developed and implemented policies and procedures to safeguard the assets and
resources of the project. Further, we determined whether the mission prepared an
assessment of its internal controls and reported it in its Federal Managers’ Financial
Integrity Act report for fiscal year 2007.

Our site visits were limited due to the precarious security situation and inclement weather
conditions in some parts of Afghanistan. Specifically, the team visited seven of the
activities being implemented in Herat and Kabul provinces.


Methodology
To answer the audit objective, we reviewed (1) the contract that the mission awarded to
the contractor, including the modifications to the contract; (2) performance management
plans; (3) annual work plan; (4) progress and financial reports; and (5)
USAID/Afghanistan’s Federal Managers’ Financial Integrity Act report for fiscal year
2007. We also interviewed responsible contractor and mission officials.

To review the project’s accomplishments reported during its first year of implementation,
we verified the accuracy, appropriateness, and sufficiency of the documentation
supporting the reported progress data. In addition, we tested the accuracy of the project


                                                                                        15
                                                                         Appendix I


files maintained in the project database, the web-based management information
system, and the files maintained outside of these databases.

We considered every exception we identified as a reportable condition.




                                                                                16
                                                                     Appendix II




MANAGEMENT COMMENTS



MEMORANDUM


TO:                 Regional Inspector General/Manila, Catherine Trujillo

FROM:               USAID/Afghanistan, Acting Mission Director, Barbara Krell /s/

DATE:               June 14, 2008

SUBJECT:            Draft Report on the Audit of USAID/Afghanistan’s Small and
                    Medium Enterprise Development Activity (ASMED) (Audit
                    Report No. 5-306-08-00X-P)

REFERENCE:          C.Trujillo/M.Yates memo dated May 16, 2008


Thank you for providing the Mission the opportunity to review the subject draft
audit report. We would like to thank the auditors for their professionalism,
patience, and hard work while conducting the audit. The draft report contains
useful recommendations for strengthening the Mission’s ability to monitor and
track progress towards achieving intended results and assessing the contractor’s
performance.     We are providing our plans of action to address the
recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan require
the cognizant technical officer for the Afghanistan Small and Medium
Enterprise Development Activity to work with Development Alternatives,
Inc. in refining the project database to eliminate duplicate records and to
ensure that the data in the project database are reliable.

The Mission agrees with the recommendation. The Cognizant Technical Officer
instructed Development Alternatives, Inc. (DAI) to refine the project database to
eliminate duplicate records and to ensure that the data in the project database
are reliable. On April 15, 2008, the Activity Monitoring and Evaluation (M&E)


                                                                              17
                                                                         Appendix II


Manager reported that DAI had completed the task of cleaning out the duplicates
(Attachment 1). In order to verify this, the Cognizant Technical Officer further
requested assistance from the Afghanistan Services Under Program and Project
Offices for Results Tracking (SUPPORT) project to perform an independent
database audit and confirm the data quality. SUPPORT’s response was
received on May 21, 2008 (Attachment 2), whereby the expert who conducted
the database audit stated:
       “It is my opinion that the ASMED staff has effectively corrected any
       duplication errors evident in earlier versions of their databases.”
Furthermore, the report itself (Attachment 3) states:
       “It is clear from the audit process that ASMED staff has developed a
       productive and comprehensive method of reducing duplications and
       identifying those that occur.”
Based on these database audit findings, the Mission requests that this audit
recommendation be closed.


Recommendation No. 2: We recommend that USAID/Afghanistan require
Development Alternatives, Inc. to develop a plan of action that will
implement the web-based management information system by May 31,
2008. This plan would include procedures on eliminating duplicate records
and in ensuring that the data in this system are reliable.

The Mission agrees with the audit recommendation. The Cognizant Technical
Officer worked with DAI to develop the following plan to address this
recommendation:

1. Prepare and conduct training for the monitoring and evaluation staff of the
   Activity in early May, in order to increase their awareness about the following:
        a) the importance of the ADS standards;
        b) the steps for adhering to those standards within the Activity system;
        c) the data entry process within the web-based management
             information system - the Technical and Administrative Management
             Information System (TAMIS);
         d) clarification of the Activity indicators and data collected to support
             Activity reporting;
2. Create user manuals for the Activity’s monitoring and evaluation staff so that
   data entry within TAMIS is easily understood;
3. Plan regional office visits after the May training to continue to verify data and
   support Activity staff to ensure that monitoring and evaluation procedures are
   being followed. The offices in Badakshan, Nangarhar and Kandahar will be
   visited in the course of June, and the new offices being established in Hirat
   and Balkh as soon as the new staff is hired.

On May 25, 2008, the ASMED Chief of Party gave a presentation to the Mission
on what has been done and what is proposed to address the audit findings


                                                                                 18
                                                                      Appendix II


(Attachment 4). Representatives from all relevant Offices attended: Economic
Growth, Financial Management, Program and Project Development, and
Acquisition and Assistance. In addition, the TAMIS Introduction and User’s
Manual was presented, along with an on-line demonstration of the system
(Attachment 5).

The Office of Economic Growth is satisfied with the plan of action and the
measures that have been undertaken in order to ensure reliable entry of data,
and the built-in checks and balances to avoid duplication of data entries. The
CTO will oversee DAI’s continued implementation of the plan of action to ensure
data integrity of the revised TAMIS web-based management information system.
Based on this, the Mission requests that this audit recommendation be closed.


Recommendation No. 3: We recommend that USAID/Afghanistan develop
and implement a plan of action that will require the cognizant technical
officer for the Afghanistan Small and Medium Enterprise Development
Activity to provide technical direction to Development Alternatives, Inc. in
updating the performance management plan; redefining the performance
indicators and targets; and redirecting their resources to those areas
where progress can make more of an impact.

Recommendation No. 4: We recommend that USAID/Afghanistan’s
cognizant technical officer for the Afghanistan Small and Medium
Enterprise Development Activity formally approve the updated
performance management plan resulting from Recommendation No. 3.

The Mission agrees with the audit recommendations. In order to meet these
requirements, the following plan was developed:

   1. A contract modification will be executed, to better align the Scope of Work
      with the current situation in Afghanistan and the actual implementation
      circumstances, specifically related to the provinces and regions;
   2. A new PMP will be developed to conform with this new reality;
   3. The proposed PMP will be discussed with the Office of Program and
      Project Development to ensure consistent monitoring and evaluation of
      the activity;
   4. The Cognizant Technical Officer will then formally approve the updated
      performance monitoring plan.

Based on the above plan of action, the Mission requests that Recommendation
No. 3 be closed. The target date for completion of the planned actions to address
Recommendation No. 4 and to formally approve the revised performance
management plan is August 31, 2008. We therefore request RIG/Manila
concurrence that a management decision has been reached.


                                                                              19
                                                                Appendix II




Attachments
Attachment 1.   Communication by ASMED to the CTO on the database
Attachment 2.   Communication on the ASMED database audit results
Attachment 3.   ASMED database audit report
Attachment 4.   Presentation of the ASMED Performance Audit Response
Attachment 5.   TAMIS – An Introduction and User’s Manual




                                                                        20
                                                                                                    Appendix III


                                        Project Indicators and Progress Data
                                         (January through December 2007)


                                                 DATA                          YEAR 1     REPORTED    OIG TEST
     INDICATOR NO: DESCRIPTION                  SOURCE       COVERAGE          TARGET      RESULT     RESULT
1.1 No. of market assessments completed        USAID         Afghanistan-
with help from local partners                  GeoBase1      wide                8           12           12
                                                                                      4
                                                             Central           None          4
1.2 No. of SMEs2 that have added value                       Eastern             50          13
and/or diversifed into higher value products   Project                                                 Could not
and/or services in response to market          Database      Western             50          2         determine
demand                                                       Northern            25         139
                                                             Southern            25          6
1.3 Increased sales of participating SMEs      Project       Afghanistan-                              Could not
in target sectors (over baseline)              Database      wide               +10%         n/a       determine
                                                             Central            None         20           17
                3                                            Eastern             35           0            1
2.1 No. of BDS providers operating in          Excel
target provinces                               Spreadsheet   Western             35           2            3
                                                             Northern             5           0            1
                                                             Southern            10           0            0
2.2 Increase in clients of assisted BDS        Excel
                                                             Afghanistan-                               +18%
providers                                      Spreadsheet
                                                             wide               +25%        +21%
                                                             Central            None        596
                                                             Eastern            300         899
                                               Project                                                Could not
2.3 No. of businesses supported                              Western            300         287
                                               Database                                               determine
                                                             Northern           150         596
                                                             Southern           150          39
                                                             Central            None         8
                                                             Eastern             50          15
                                               Project                                                 Could not
2.4 No. of new SMEs created                                  Western             50          3
                                               Database                                                determine
                                                             Northern            25         211
                                                             Southern            25          0
                                               Project       Afghanistan-                              Could not
2.5 Jobs created
                                               Database      wide               2,000       3,004      determine
2.6 Bank loans/equity accessed                 Project       Afghanistan-                              Could not
                                               Database      wide                10          40        determine
                                               Project       Afghanistan-                              Could not
2.7 Investment in new technology
                                               Database      wide                800        222        determine
                                                             Central            None         8
                                                             Eastern             12          9
3.1 No. of business associations               Project                                                 Could not
established in target provinces                Database      Western              10         3         determine
                                                             Northern             15         5
                                                             Southern             3          8
                                                             Central            None         43
                                                             Eastern             30          13
3.2 No. of existing business associations      Project                                                 Could not
supported in target provinces                  Database      Western             25          17        determine
                                                             Northern             5          0
                                                             Southern             5          3
3.3 Increase in membership of project          Project       Afghanistan-                              Could not
supported associations                         Database      wide               +10%        +5%        determine




                                                                                                               21
                                                                                                         Appendix III


                                          Project Indicators and Progress Data
                                           (January through December 2007)


                                                   DATA                          YEAR 1     REPORTED       OIG TEST
    INDICATOR NO: DESCRIPTION                     SOURCE       COVERAGE          TARGET      RESULT        RESULT
3.4 No. of new members in new/existing          Project        Afghanistan-                                 Could not
associations                                    Database       wide                1,000       5,416        determine
                                                               Central               2           5               4
                                                Physical       Eastern               2           0               0
4.1 No. of public-private / Global
                                                count of
Development Alliances formed per province                      Western               2           1               1
                                                GDA
per year                                                       Northern              1           1               1
                                                contracts
                                                               Southern              1           1               1
                                                               Central           $250,000   $1,745,000     $1,345,507
                                                               Eastern           $250,000       $0             $0
                                                Excel
4.2 Dollar value of funding leveraged                          Western           $250,000    $404,000       $404,290
                                                spreadsheet
                                                               Northern          $125,000    $200,000       $200,000
                                                               Southern           $50,000    $580,000       $580,000
                                                               Central              20           63             55
                                                               Eastern              20          39             36
5.1 No. of internship opportunities provided    USAID
in each province per year                       Geobase        Western              20          70              70
                                                               Northern             20           25             23
                                                               Southern             20           0               0
                                                               Central              10           0               0
                                                               Eastern              10          27              27
5.2 No. of participants in Professional         Excel
Learning Mentorship program                     spreadsheet    Western              10           0               0
                                                               Northern             10           0               0
                                                               Southern             10           0               0

Footnotes:                                                                   

1 - USAID/Afghanistan's management information system used to track program and project information for all 

mission-funded activities. 

2 - Small and Medium Enterprise 

3 - Business Development Services 

4 - None means no target was set. 





                                                                                                                  22
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
